r

i
1
2

GROUND ONE

3
4

The State violated Petitioner's United States Constitutional Right

5 11 under the 4th Amendment against Unreasonable Search and Seizure, the
^

Petitioner's United States Constitutional Right under the 5th Amendment against

7 11 Self-Incrimination,
8
Q

Petitioner's United States Constitutional Right under the

6th Amendment to Effective Assistance of Counsel and Self Representation, and
||

[Petitioner's United States Constitutional Right under the 14th Amendment to
10

Due Process.

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

'“"A”'”'’”*'":

Ground One - 1

Apper^i* A

r

t
1

GROUND TWO

2
3
4
5
6
7
8
9

The State violated Petitioner's Due Process rights under the 5th and 14th
Amendments of the United States Constitution, Due Process rights under
Article I, Section I, Paragraph I of the Georgia Constitution of 1983, and
the rights to Effective Assistance of Council and to Self-Representation
under the 6th Amendment of the United States Constitution, by criminal and
unethical acts resulting in the intentional intrusion into Core Original Work
Product which formulated the Defense trial preparations, without any

10

legitimate purpose, by which the State obtained insight into Defense strategy

11

that the State exploited in its trial preparation to gain an unfair tactical

12

advantage against Petitioner, resulting in prejudice against Petitioner.

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Ground Two - 1

I
GROUND THREE

1
2
3

Petitioner's Due Process rights under the 5th and 14th Amendments of the

4

United States Constitution and under the Georgia Constitution of 1983,

5

Article I, Section I, Paragraph I, were violated by deprivation of a fair and

6

impartial judicial officer who was actually prejudiced against Petitioner and

7

whose presiding over the case created an unfair probability of prejudice.

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
-

in
Ground Three

1

»
1

GROUND FOUR

2
3

Petitioner's Sixth Amendment right to Effective Assistance of Counsel was

4

violated by the actions and omissions of Defense Attorneys Floyd M» Buford

5

Jr. and Franklin J. Hogue. Petitioner's Defense Attorneys failed to raise

6

challenges against Involuntary Statements of Petitioner, Prosecutorial

7

Misconduct, and the intentional theft by State Agents of Petitioner's Core

8

Opinion Work Product and research, which formed the Defense strategy, which

9

was solicited by and in conjunction with Defense Attorneys. Defense attorneys

10

failed to review, argue and or concealed discovery material from Petitioner

11

resulting in the admission of a second consent search. Defense Attorneys

12

failed to present and argue on behalf of the Petitioner, the denial of

13

medical treatment at the time of the second consent search, despite having

14

tangible evidence of the existence of such evidence.

15
16
17
18
19
20
21
22
23
24
25
26
27
28

Ground Four - 1

# EFIL.ED IN OFFICE
CLERK OF SUPERIOR COURT
RICHMOND COUNTY. GEORGIA

IN THE SUPERIOR COURT OF RICHMOND COUNTY

2018RCHM00002
JOHN FLYTHE
SEP 09, 2019 12:30 PM

STATE OF GEORGIA
STEPHEN MARK MCDANIEL,
Petitioner,
VS.
EDWARD PHILBIN,
Respondent.

)
)

) Civil Action File No.: 2018-RCHM-2
)
)
)
)
)
)

ORDER
A two-day bi-furcated evidentiary hearing in this habeas proceeding was held August 17,
2018 and November 30, 2018.* (T-2, p. 216, lines 1-2, p. 135, line 22). The evidentiary record
contains twenty-three exhibits on behalf of the petitioner and fifty exhibits on behalf of the
respondent.

Many of these exhibits are transcripts of trial court proceedings and filings

duplicative of exhibits attached to the petitioner’s application for writ of habeas corpus. The
evidentiary record also contains testimonial evidence from petitioner’s lead defense counsel, his
co-defense counsel who served as petitioner’s primary litigator2, and the Assistant District
Attorney ultimately assigned primary trial responsibility for his prosecution. The petitioner,
Stephen Mark McDaniel, filed an affidavit but did not testify under oath during his evidentiary
hearing.3 This Court has thoroughly reviewed the evidentiary record and enters the following
findings of fact and conclusions of law.
Citations to the August 17, 2018 hearing transcript are denoted herein as “T-l.” Citations to the November 30,
2018 hearing transcript are denoted herein as “T-2.”
2 Counsels’ testimony included matters growing out of the attorney client relationship and involved petitioner’s
claims that his plea of guilty was not entered freely and voluntarily and ineffectiveness, As such the
communications are waived. BiilgyjyjBakgK 232 Ga. 84, 205 S.E.2d 278 (1974), citing United States v. Woodall,
438 F.2d 1317 (5,h Cir. 1970); See also .Waldrop y. Head, 272 Ga. 572, 532 S.E.2d 380 (2000); Roberts v.
SiSfitffiay, 233 Ga. 473, 47-7, 211 S.E.2d 764 (1975) (attorney may testify when habeas petitioner challenges
validity of guilty plea).
3 In resolving disputed issued of fact, this Court gives greater credence to the transcript of evidence concerning the
entry of McDaniel’s plea of guilty than to his affidavit. See Wilson v. Hopper. 234 Ga 859, 218 S.E.2d 573 (1975),
citing
227 Ga. 584, 182 S.E.2d 120 (1971); O.C.G.A. § 9-14-48(a). The Court also credits the
Page 1 of28

Appendix B

I. Procedural History stud Findings of Fact
Background,
The petitioner, Stephen Mark McDaniel, challenges his April 21, 2014 conviction for
malice murder entered in the Superior Court of Bibb County pursuant to his negotiated plea of
guilty to indictment #13CR69874. (R-2, Indictment, R-49, Final Disposition). In response to
what has been described as a vicious murder, dismemberment, and high-profile case, McDaniel
was indicted for the offense of malice murder and the State sought the death penalty. (T-l, p.
162, lines 8-8, p. 56, lines 21-23, R-2, Indictment #11CR67684, R-3, Notice of Intention to Seek
the Death Penalty).4 McDaniel received a sentence of life imprisonment with the possibility of
parole. (T-l, p.137, line 25, T-2, p. 138, lines 1-2).
McDaniel received a juris doctorate approximately one month before he admittedly
murdered Lauren Giddings on or about June 30, 2011. He had also obtained an advanced
certificate in legal research writing and drafting. (T-l, p. 87, lines 6-11). His victim, Ms.
Giddings, also was a law school graduate as well as McDaniel’s next-door neighbor in the
apartment building where they lived. (T-l, p. 57, lines 9-13). McDaniel interned while in law
school for the Bibb County District Attorney’s Office in the spring semester of 2011. A Superior
Court Judge for whom McDaniel previously served as a law clerk recused himself from
McDaniel’s criminal case. (T-l, p. 183, lines 11-15, p. 34, lines 16-21, T-2, p. 136, lines 10-12).
McDaniel became a suspect when a Macon Police Department Detective saw him give
two television interviews on the day of the murder. (T-2, p. 150, lines 16-25, p. 151, lines 18-

undisputed testimonial evidence of counsel which shows McDaniel’s plea of guilty was entered freely and
voluntarily, knowingly and intelligently.
4 The Grand Jury returned three indictments against McDaniel. The initial indictment filed November 15, 2011
alleged death caused by dismembering. However, the evidence would show that the dismemberment occurred post­
mortem. (T-l, p. 61, lines 19-25, R-2, Indictment 11CR67684). A legal challenge to this indictment was avoided
by an indictment filed October 29, 2013. (Id., p. 61, lines 23-25, p. 62, line 1, R-31, Indictment 13CR69874).
Page 2 of 28

20).

Local investigators and Detectives for the Mercer Campus Police Department, the Macon

Police Department, District Attorney’s Office, and Georgia Bureau of Investigation (GBI)
participated in components of the resulting criminal investigation. McDaniel’s attorneys were
prepared to express severe criticism of the crime scene maintenance and investigative steps taken
by law enforcement officials at trial. (T-l, p. 185, lines 11 -20).
The GBI searched computers and electronic equipment obtained from McDaniel’s
apartment. (T-l, p. 63, lines 20-25).s Keys to Ms. Giddings’ apartment door and every door in
the building located within McDaniel’s apartment, a hacksaw sleeve, and women’s underwear
which contained Ms. Gidding’s DNA were among the most damaging pieces of physical
evidence located and obtained from within McDaniel’s apartment. (T-2, pp. 160-165).

The

computer evidence obtained by the GBI showed McDaniel peeping into Ms. Giddings’
apartment and internet searches about having sex with dead people and tilings of that nature. (T1, p. 141, lines 17-19, p. 142, lines 2-4).
In addition, the Macon Police Department outsourced more than two hundred pieces of
evidence to the Federal Bureau of Investigation (“FBI”) which carried out the bulk of the
forensic work. (T-l, p. 149, lines 13-18). Relatively late in the case, the FBI also became
involved for the purpose of recovering McDaniel’s deleted video files. (T-2, p. 155, lines 1719).
McDaniel was a highly knowledgeable and intelligent client with the benefit of both an
undergraduate and post-graduate legal education who actively involved himself in his case. (Id.,

McDaniel was named in a third indictment which alleged thirty counts of sexual exploitation of children. (R-19,
Indictment 11CR67685).
3 The prosecuting attorney with primary trial responsibility provided a thoroughly detailed summary of the seized
evidence during her testimony in this proceeding which this court incorporates by reference within this Order. (T-l,
p. 57, lines 9-25, p. 58, lines 1-25, p. 59, lines 1-5). Of note here, evidence obtained from McDaniel’s computer
also included images and materials depicting an interest in sexual gratification from dismembered bodies and
Page 3 of28

p. J 59, lines 6-11). He assisted his attorneys by performing a substantial amount of legal
research, providing it to his attorneys, and participating in the development of his defense
theories and strategies. (T-2, p. 154, lines 11-15). McDaniel provided in excess of 800 pages of
notes and legal research to his attorneys, made theoretical suggestions, and was particularly
familiar with the record of his case. (T-2, p. 81, lines 1-3, p. 171, lines 1-15, p. 132, lines 3-4. p.
181, lines 2-11).

While some of McDaniel’s efforts were helpful, others reflected the

perspective of a law student lacking trial court experience who had never been in a courtroom in
his life until his case. (Id., p. 161, lines 10-14).
Trial Counsel.
Four retained attorneys with an estimated eighty-five years of trial experience, a
consultant, and multiple experts characterized by McDaniel and his parents as a “dream team”.
represented McDaniel. (T-l-p. 136, lines 23-25, p, 160, lines 23-24, p. 169, lines 13-15).
McDaniel’s initially retained and lead trial counsel, Floyd Buford, Jr., has practiced law for
approximately thirty-three years. Mr. Buford has a general trial practice in Macon, Georgia.
Since beginning his practice in 1985, he has handled over 7,000 cases and consulted on an
estimated 7,000 more. He has acted as lead counsel in 65 counties in Georgia and tried cases in
federal and state courts. He is AV certified by Martindale-Hubbell and a member of the
American Board of Trial Advocates. He is a life member of the National Association of
Criminal Defense Lawyers and a graduate of the National College of Criminal Lawyers. (T-l, p.
168, lines 1-21). He is admitted to practice in the U.S. District Courts for the Northern, Middle,
and Southern Districts of Georgia, the Eleventh Circuit Court of Appeals, and the United States

multiple internet searches of Ms. Giddings, whose torso was discovered in a trash can on the premises of the
apartment complex where McDaniel and Ms. Giddings both lived. (T-l, p. 57, lines 23-25).
Page 4 of28

Supreme Court. He has handled death penalty litigation in the Eleventh Circuit and in the
Supreme Court of the United States. (T-l, p. 187, lines 21-24).
Buford had early concerns about McDaniel’s competency which soon dissipated as he
and McDaniel got to know each other during several visitations in the weeks following Buford’s
retention, McDaniel started communicating, and it became apparent that McDaniel knew exactly
what was involved in his case. (T-l, p. 84, lines 1-2, p. 159, lines 20-23). McDaniel and his
attorneys got along very well, talked a lot about his case, and had a normal relationship. (T-l, p.
85, lines 23-25, T-2, p. 154, lines 9-10).

Based on McDaniel’s initial failure to verbally

communicate with him, Buford was concerned that McDaniel was “faking” his behavior shortly
before his arrest. Buford also considered whether McDaniel was malingering by alleging he
could not walk which resulted in the use of a wheelchair during his initial appearance hearing. .
(T-l, p. 110, lines 21-23, p. 180, lines 8-15, p. 86, lines 1-7).
McDaniel’s attorneys are experienced in addressing competency, and McDaniel was
lucid, consistent, and engaged throughout their representation. (T-2, p. 154, lines 6-10, p. 182,
lines 24-25). Neither McDaniel nor his family made counsel aware of any type of mental health
history or condition and his attorneys had no basis on which to request any type of evaluation of
Mr. McDaniel. (Id., p. 180, lines 13-23). In counsel’s estimation, McDaniel is “smart as a
whip” and competent, though socially awkward, (T-l, p. 182, lines 16-23). Indeed, no evidence
to support a showing of McDaniel’s incompetency to stand trial or otherwise has been presented
to this Court.
McDaniel’s attorneys maintained constant communication with him through a lot of
visitations in the Bibb County Law Enforcement Center and they briefed McDaniel regularly
about his case.

(T-l, p. 172, lines 7-24, p. 170, lines 7-23).

Page 5 of 28

Except for the evidence of

pornography which McDaniel prohibited his attorneys from sharing with her, counsel also
briefed McDaniel’s mother about his case on a regular basis. (T-l, p. 374, lines 6-8). In
addition, they facilitated a host of special privileges and advantages for McDaniel within the
Law Enforcement Center such as enabling him to work out of the infirmary with die use of a
computer.

(Id., p. 99, lines 1-4). These privileges also included a special phone call to

McDaniel’s grandfather during his hospitalization. (T-l, p. 186, lines 19-22).
When the District Attorney pursued the case as a death penalty case, Buford felt like a
defense team was needed as required under the unified appeal procedure for death penalty cases.
(T-2, p. 119, lines 17-20). In consultation with McDaniel, Buford associated Frank. Hogue and
two of Hogue’s Associates in January of 2012. The association pleased McDaniel’s parents who
were excited the attorneys had joined forces on the case. (T-J, p. 169, T-2, p. 172, lines 11-13).
Hogue was admitted to the State Bar in 1991 and has devoted his career to his private
criminal defense practice. He estimates he has handled between eighty and one hundred murder
cases, and about ten death-penalty cases. He has worked with Buford several times as cocounsel on behalf of clients accused of murder. (T-2, p. 179, lines 12-24, p. 180, line 1). He has
also represented other clients accused of dismembering their victims. (Id., p. 103, lines 10-11).
McDaniel’s attorneys spent many, many hours working on his case. (T-l, p. 110, lines
21-23). For many years, McDaniel’s case %vas the major case and focus in counsel’s office and
part of counsel’s day every day was spent on McDaniel’s business. (Id., p. 160, lines 17-25).
McDaniel’s attorneys allocated the workload and divided responsibilities. (T-l, p. 169, lines 2022). For example, Buford filed a motion to disqualify the District Attorney’s Office, reviewed
the video evidence produced during discovery, issued subpoenas to the District Attorney and
several media outlets for unpublished photographs, and filed a motion to change venue for trial

Page 6 of28

which was granted. (T-2, p. 167, lines 12-16, T-l, p, 196, lines 14-15(T-1, p. 169), p. 170, lines
1-2). Hogue filed a lot of suppression motions and was successful in getting a portion of
McDaniel’s custodial statements held inadmissible. (T-l, p. 170, lines 2-3, T-l, p. 191, lines 1013). As discussed more fully below, Hogue also worked on McDaniel’s allocution based on
facts conveyed by McDaniel. (T-l, p. 176, lines 14-24).
Hogue also reviewed everything he received in discovery, investigated, and talked with
many witnesses who gave statements in connection with McDaniel’s case. (Id,, p. 61, lines 1761, T-2, p. 174, lines 7-8, T-2, 62, line 25). He also sent an associate to the jail with a laptop
computer so McDaniel could listen to audio files produced during discovery. (Id., p. 92, lines 212). Hogue provided some 1100 pages in initially produced discovery materials to McDaniel in
written and digital form before he ultimately provided everything he received to McDaniel. (Id.,
p. 90, lines 5-12). As reflected in the Bibb County Case Display report, McDaniel’s attorneys
filed many motions. (T-l, p. 197, lines 22-25, p. 170, lines 1-6, R-l, Bibb County Case Display
Report). The motions were very detailed, and McDaniel stated during his evidentiary hearing in
this proceeding that he had “no complaints” concerning the motions that were filed. (T-l, p. 198,
lines 2-3).
Counsel reviewed material produced during discovery in preparation for trial and spent a
lot of time trying to figure out who other than McDaniel was criminally responsible. (T-l, p.
172, lines 1-2, p. 165, lines 8-11). Counsel worked a list of approximately thirty suspects and
analyzed every registered sex offender who lived within a certain proximity to the law school.
(T-l, p. 172, lines 1-10).

Had the case gone to trial, counsel would have presented a classic

reasonable doubt defense that McDaniel did not commit this murder. His attorneys thought until

Page 7 of28

the end that McDaniel had a good chance of going to trial and getting a hung jury. (T-l, p, 171,
lines 1-25, T-l, p. 172, lines 16-21),
McDaniel asserts that counsel should have sought recusal of Superior Court

Judge

Howard Simms, the Judge ultimately assigned to his case after the retirement and recusal of
previously assigned Judges. (T-l, p. 126, lines 13-24), McDaniel expressed concern about
Simms’ alleged lack of impartiality to his attorneys due to a previous application for a court
order and Simms’ finding of probable cause for issuance of one of the many search warrants
issued in McDaniel’s case. (T-l, p. 137, lines 4-8, T-2, pp. 129-132, P-8, P-9). Judge Simms
granted McDaniel’s consent motion for change of venue and ordered the trial to be held in the
Superior Court of Henry County, Georgia due to pre-trial publicity. (T-l, p. 75, lines 15-18, p.
64, lines 4-5, P-22, Consent Order to Change Venue). Counsel discussed the issue of recusal
with McDaniel, believed Judge Simms to be an honorable man and a hard-working Judge
knowledgeable in the law, and therefore did not seek recusal as trial strategy. (T-l, p. 130, T-2,
p. 137, lines 6-8). Counsel believed Judge Simms to be a very good judge and had no problems
whatsoever with Judge Simms presiding over McDaniel’s case. (T-l, p. 129, lines 20-23, T-2, p.
180, lines 22-23).
The Prosecution.
The District Attorney in office at the time of McDaniel’s arrest served as the primary
prosecutor in McDaniel’s case until his elected successor took office on January 1, 2013. (T-l,
p. 53, lines 6-13, 55, lines 1-5, T-2, p. 21, lines 13-15, p. 60, lines 7-18). Along with other
prosecutors who were involved at the crime scene, he was very involved in the prosecution in the
early stages of the case; and he kept the prosecution’s file in his office. In addition, he conducted
witness interviews and worked with Detectives. (Id., p. 55, lines 15-17) (T-2, p. 23, lines 7-11,

Page 8 of 28

T-2, p. 165, lines 10-13). A newly elected District Attorney took office January 1, 2013 and
carried out McDaniel’s prosecution along with two other senior prosecutors. (Id., p. 56, lines 410, T-l, p. 56, lines 1-3)
The Chief Assistant District Attorney who ultimately shared the lead in preparing
McDaniel’s case for trial, Nancy Malcor, has served as a prosecuting trial attorney for more than
twenty-three years in the Bibb County District Attorney’s Office. Ms. Malcor has tried well over
100 cases and handled countless others. (T-l, p. 34, lines 16-18, p. 35, lines 14-15, p. 54, lines
18-21). She and McDaniel’s attorneys spoke frequently about McDaniel’s case. Malcor has
worked with McDaniel’s attorney’s on other cases, has a good relationship with them, and
considers them to be criminal defense attorneys of the highest caliber. (Id., p. 73, lines 3-14, p,
65, lines N7).
In January of 2013, when she discovered that a law clerk had compiled a notebook
containing intercepted copies of appellate decisions and summaries requested by McDaniel while
confined in the Bibb County Jail, she immediately provided the materials to McDaniel’s
attorneys without reading them.6 (T-l, p. 37, fines 4-9, 22-23, T-l, p. 35, lines 20-25, p. 36, fines
1-13, p. 37, lines 1-23). As addressed more fully below, McDaniel’s attorneys determined the
materials had no relevance or significance whatsoever to his case and that the issue did not
require their intervention. (T-l, p. 37, lines 4-9, T-l, p. 184, lines 10-12, T-2, p. 181, lines 1112).
Discovery.
Discovery was conducted under the District Attorney’s Office’s long-standing open file
policy and a standing Order whereby the prosecution produced all evidence in its possession.
6 McDaniel requested in excess of 700 cases. (T-2, p. 122, lines line 12).

Page 9 of28

(Id., p. 62, lines 13-20). McDaniel’s attorneys received the initial “batch” of discovery in April
of 2012 and they kept him advised about the evidence as it continued to be produced. The
prosecution produced thousands upon thousands of pages of discovery throughout McDaniel’s
case. (T-l, p. 146, lines 1-2, p. 170, lines 21-22, T-l, p. 99, lines 8-12, T-2, p. 21, lines 6-9, T-l,
p. 63, lines 16-18, T-2, p. 146, lines 20-25).
When Hogue learned in January 2013 that the District Attorney’s Office had received
intercepted legal research requests, he did not consider tire interception of McDaniel’s legal
research as “any big deal” because the prosecution would have known about the legal issues in
the case without the materials.

(T-2, p. 99, lines 23-25, p. 100, lines 1-6-13). While the

materials may have provided insight into McDaniel’s thinking, they did not reveal his attorney’s
evaluation of the case, defense theory, or strategy. (T-2, pp. 182-185).

As such, they were

simply non-material to the defense. (T-2, p. 181, lines 1-12).
Late Discovered Evidence.
A few weeks before trial was to begin, as prosecutors identified physical evidence to be
transported from the Macon Crime Lab to Henry County for use during trial, a second digital
camera was discovered which had not previously been forwarded to the GBI for analysis.

The

second camera was taken immediately to the GBI whereupon arrival a prosecuting attorney
notified Hogue of the discovery and provided the content of the camera to him right away. (T-l,
p. 64, lines 1-20, p. 139, lines 18-25, p. 140, lines 1-3).
The evidence obtained from the camera was a “significant find” which hurt the defense
terribly during trial preparations. (Id., p. 172, lines 11-25) (Id, p. 146, lines 13-16). It contained
surveillance footage of Ms. Giddings’ apartment on the night ultimately determined as the time
she was killed. (T-l, p. 59, lines 1-5). The evidence produced at the end of the case more than

Page 10 of28

strongly favored a trial conviction. (Id., p. 158, lines 7-9). In his attorneys’ judgment, McDaniel
would have been convicted and most definitely received a sentence of life without parole or
worse had he gone to trial. (Id., p. 148, lines 2-7). Furthermore, in counsel’s judgment, the
federal government would have probably prosecuted McDaniel for child pornography and a
separate life sentence likely would have been imposed upon conviction. (Id., p. 148, lines 8-10).
The late-discovered evidence disintegrated McDaniel’s case because it directly linked
and physically connected him to Ms. Giddings’ apartment, and his attorneys informed McDaniel
about it in an effort to keep him informed of the evidence and options available to him. (T-l, p.
173, lines 11-25). In light of the late-discovered and highly incriminating evidence, McDaniel
decided that he did not want to go to trial, decided instead to plead guilty, and indicated that he
wanted his attorneys to try to work out a plea bargain. (Id., p. 174, lines 20-25, T-l, p. 138, lines
9-10). McDaniel had been committed to going to trial before the relatively late production of the
video evidence from the second camera, but the content of the additional incriminating evidence
from this camera created a heavy, heavy evidentiary problem, and led to initiation of plea
discussions by McDaniel’s attorneys and McDaniel’s ultimate decision to plead guilty. (T-l, p.
146, lines 6-8, p. 139, lines 18-25, p. 140, lines 1-3, 22-24, T-l, p. 64, lines 17-18, p. 65, lines
11-18, p. 142, lines 4-5, p. 146, lines 15-16). McDaniel’s trial counsel had believed McDaniel
was innocent until the relatively late production of this evidence and McDaniel’s shocking
confession to them that followed. (Id., p. 141, lines 15-16). Together, these developments
formed the basis of McDaniel’s decision to enter a knowing and voluntary plea of guilty. (T-l,
p. 159, lines 6-11, p. 142, lines 16-25, p. 158, lines 9-33).

r::„~ •'

Page 11 of 28

McDaniel’s Confession,
Next, McDaniel startled his attorneys by talking openly with them about his entering Ms.
Gidding’s apartment and killing and dismembering her. (Id., p. 174, lines 1,3-22, p. 175, lines 18). McDaniel went into terrific graphic detail about how he killed Lauren Giddings, decapitated
her, and carved up her body. He volunteered further that he went in Ms. Giddings’ apartment
with a mask on, walked on the floor and when it creaked, Ms. Giddings woke up, he jumped on
her and she fought him. He stated that Giddings knocked his mask off, called him by name, and
went under the bed for protection. He stated that her arms got trapped under the bed, her neck
was exposed, and he choked her to death before he placed her in the tub around 4:30 a.m. He
stated that he went to his apartment for a couple of hours, returned, and started dismembering
Ms. Giddings. McDaniel described how he cut off every finger, thumb, and appendage on her
hands and threw them in the toilet at one time and flushed it. (T-l, p. 141, lines 20-25, p. 142,
lines 1-2). He stated that he took her head and limbs and placed them in a bag which he took
across the street to the law school where he placed them in the dumpster, then left her torso in the
dumpster at Barian (sic) Hall apartments. (T-l, p. 146, lines 21-25, p. 47, lines 1-14).
Anticipating that: McDaniel’s mother would not accept the fact that McDaniel had
decided to plead guilty on the Monday morning when trial was to begin, his attorneys arranged
for her to hear the news directly from McDaniel. (T-l, p. 142, lines 21-25, p. 179, lines 21-25).
Counsel contacted the Sheriff, indicated that there was some movement on the McDaniel case,
and coordinated a meeting in the Bibb County Law Enforcement Center where McDaniel
informed his parents in the presence of his attorneys and consultant of his commission of the
crime and his decision to plead guilty. (Id., p. 180, lines 1-7, p. 145, lines 1-12).

Page 12 of28

The Negotiated Plea Agreement,
The plea involved a deliberate exercise over a period of weeks. (T-l, p. 177, lines 12-15,
p. 173, lines 1 -3). After four or five days of hard discussions, McDaniel’s attorneys were able to
negotiate a carefully orchestrated pica bargain with the District Attorney and a global resolution
of all matters which involved McDaniel.

The District Attorney primarily handled the plea

negotiations on behalf of the prosecution in consultation with the parents of Ms. Giddings. (Id.,
p. 175, lines 1-3, p. 177, lines 14-15). .As a term of the agreement, the District Attorney insisted
that McDaniel execute a written allocution which described the factual circumstances of the
killing. (T-l, p. 67, lines 19-25, p. 68, lines 1-14, R-47, Allocution).
McDaniel's attorneys also worked out a deal with the United States Attorney’s Office
whereby McDaniel would not be prosecuted for child pornography if he entered a plea of guilty
to murder in Superior Court. McDaniel possessed the most horrific child pornographic photos
counsel had ever seen in his law practice.

By pleading guilty, McDaniel avoided federal

prosecution and potential sentencing enhancements for which he could have received a separate
life sentence without the possibility of parole upon conviction.

Also, a pending charge of

burglary was dismissed. In addition, a civil case for wrongful death relating to the same killing
pending in the United States District Court for the Middle District of Georgia, Macon Division,
was resolved with the entry of a consent judgment as to liability against McDaniel.7 (T-l, R-48,
p. 10,69, lines 4-15, p. 142, lines 7-14).
McDaniel's Plea of Gniliy,
When notified of the plea agreement, the trial court specifical ly ordered plea forms to be
filled out which McDaniel and his attorney’s reviewed and executed on April 19, 2014. (T-l, p.

7 Giddinas ct at v-. McDaniel 5:13-cv-00216 (M.D. Ga. 2013).

Page 13 of 28

175, lines 22-25, p. 70, lines 4-20, p. 158, lines 19-24, R-45, Plea of Guilty: Acknowledgment
and Waiver of Rights, R-46, Acknowledgment, Assertion of Habeas Corpus Rights or Waiver,
R-47, Allocution). Two days later, the trial court conducted a hearing during which McDaniel
entered his plea of guilty pursuant to his negotiated plea bargain. (R-48, Transcript of Plea
Hearing). McDaniel plead guilty to malice murder and tendered his written allocution
specifically laying out the elements of the crime. (R-48, p. 2, lines 2-20, R-47, Allocution).8 The
District Attorney presented impact testimony and moved to nol pros the child pornography case
against McDaniel and to dismiss a burglary case against him. (Id.). As the parties negotiated
and recommended, the trial court imposed a sentence of life imprisonment with the possibility of
parole. (R-49, Felony Disposition).
The Guilty Plea Proceeding,
The Factual Basis and Plea Colloquy.
The following factual basis for the plea was presented to the trial court:
“THE COURT:

All right, Mr. Cooke, tell me what the factual basis is for this plea is,

please?
MR. COOKE:

Your Honor, had we gone to trial the Stale would have shown that on June

30, 2011, the dismembered torso of Lauren Giddings was discovered in a trash can at Barristers
Hall apartments where both she and the defendant lived here in Macon, Bibb County. Although
the cause of death has never been determined, a subsequent autopsy determined that the manner
of death was unknown homicidal violence. No signs of sexual assault were detected.
A hacksaw containing her DNA and that appears to have been used to cut up her body
was discovered in a storage closet in the apartment building. The packaging for that hacksaw

McDaniel was heavily involved in the allocution and approved it. (T-l, p. 148, lines 18-20).

Page 14 of28

was later discovered in the defendant’s apartment along with an apartment master key that fit the
closet where the hacksaw was found. The victim’s apartment key and a pair of her panties were
also inside McDaniel’s apartment.
Additionally, police recovered a flash drive containing hundreds of deleted personal
photos of the victim. In an email dated June 22, 2011, Lauren had reported that her flash drive
matching that description was missing. A forensic analysis of the defendant’s computer revealed
an internet history that detailed his obsession with the victim and included research on the
burglary bar security device that she used to lock her door.
The forensic analysis also revealed an interest in sadistically violent pornography
involving die killing and dismemberment of women.
Interviews with former classmates proved that the defendant had a many years long
fantasy of committing the perfect murder which involved the dismemberment of a victim and the
hiding of the body parts in multiple locations in order to conceal the crime.
Finally an analysis of McDaniel’s digital camera revealed videos taken to surveil and spy
on the victim the night and early morning of her disappearance.
Those would have been the facts that we would have presented at trial, Your Honor.”
The following colloquy and exchange is reflected within the transcript of the plea
hearing:
“BY THE COURT:
Q:

Mr. McDaniel, have you had a sufficient opportunity to discuss this case with your

attorneys?
A:

Yes.

Q:

Have they advised you of your legal and Constitutional rights?

Page 15 of 28

A:

Yes.

Q:

Are you satisfied with their representation in this matter?

A:

Yes.

THE COURT:

Mr. Hogue, Mr. Buford, have you had a sufficient opportunity to discuss

this case with Mr. McDaniel?
MR. HOGUE:

We have.

MR. BUFORD:

We have.

THE COURT:

Have you advised him of his legal and Constitutional rights?

MR. HOGUE:

We have.

THE COURT:

Are you aware of any defense or defect that would prevent the Court from

accepting this plea?
MR.

HOGUE:

THE COURT:

There is none, Your Honor.
I find there is a factual basis, the defendant fully understands his legal and

Constitutional rights, and I will accept the plea.” (R-48, pp. 5-8).”
The Knowing and Voluntary Waiver of Boykin9 rights.
“MR. COOKE:

And, Your Honor, the written plea has been tendered.

THE COURT:

At this point, Mr. Cooke, if you would - let me ask this question first. Mr.

Hogue, do you have the forms that Mr. McDaniel completed, the acknowledgement and waiver
of ri ghts under the Habeas Corpus law?
MR. HOGUE:

I handed those up to Your Honor a moment ago.

? Boyktft v, Alabama, 395 U.S. 238, 89 S.Ct. 1709,23 L.Ed 274 (1969).

Page 16 of28

THE COURT:

Okay. You are right. Mr. McDaniel, did you go over these forms with

Mr. Hogue and Mr. Buford, the acknowledgment of your rights under Georgia’s Habeas Corpus
law and the acknowledgment and waiver of your rights at a guilty plea?
DEFENDANT:

Yes.

THE COURT:

Did you understand them?

DEFENDANT:

Yes.

THE COURT:

Did they explain them to you?

DEFENDANT:

Yes,

THE COURT:

And did they sign these?

DEFENDANT:

Yes.” (R-48, p. 9).

THE COURT:

I need to ask you some questions, okay?

BY THE COURT:
Q:

Are you the Stephen [sic] Mark McDaniel named in this indictment?

A:

Yes.

Q:

How old are you, Mr. McDaniel?

A:

Twenty-eight.

Q:

Would you tell us what your educational background is, please?

A:

I’m a graduate of law school. The Walter F. George School of Law.

Q:

So you read, write, and understand the English language?

A:

Yes, 1 do.

Q:

Are you a citizen of the United States?

A:

Yes.

Page 17 of28

Q:

Mr. McDaniel, this indictment charges you with the offense of malice murder in one

count. The maximum penalty for dial offense in this case is life in the penitentiary without the
possibility of parole. The minimum sentence in this particular case is life in the penitentiary. Do
you understand that?
A:

Yes.

Q:

Do you understand there is a joint recommendation in this case that you be sentenced to

life in the penitentiary and that these other outstanding criminal cases will either be dismissed or
nol prossed; do you understand?
A:

Yes.

Q:

Do you understand that that is only a recommendation and the Court is not obligated to

follow that recommendation; do you understand that?
A:

Yes.

Q:

Understanding the charge and possible penalty then, Mr. McDaniel, how do you plead to

the offense of murder, guilty or not guilty?
A:

Guilty.

Q:

Are you pleading guilty freely and voluntarily?

A:

Yes.

Q:

Has anybody forced you or threatened you or coerced you in any way to get you to plead

guilty?
A:

No.

Q:

Have you had any drugs, alcohol, or other medication that would affect your ability to

understand fully the nature of these proceedings here today?
A:

No.

Page 18 of28

Q:

Mr. McDaniel, if you plead guilty you give up certain rights. In particular is your right to

a trial by jury on all charges in this indictment. Along with that is the presumption of innocence
that is now in your favor. Do you understand that?
A:

Yes.

Q:

Do you understand that you also, if you plead guilty, you give up the right you have to

confront and face the witnesses against you and have them cross-examined?
A:

Yes.

Q:

Do you understand that you also give up the right to subpoena witnesses and the right to

testify yourself and offer other evidence?
A:

Yes.

Q:

In addition by pleading guilty you also give up the right to have your attorneys with you

at trial since there will not be a trial, and you give up the right you currently have against selfincrimination, in other words the right not to have to testify against yourself. Do you understand
that?
A:

Yes.” (R-48, pp. 2-5).
The decision to plead guilty was totally McDaniel’s. When asked about his level of

certainty to which McDaniel entered his plea of guilty freely and voluntarily, Buford testified, “1
can tell you the honest truth and I’ve probably done literally over 3,000 plus pleas in my life, his
was knowingly and voluntarily, intelligently entered. He knew what he wanted to do. He
elected to do this. I certainly was supportive of his efforts, but it was his decision and there was
no doubt in his mind about it.” (T-l, p. 178, lines 1-8). His attorney’s believe McDaniel made
the right decision to plead guilty, but that it was his decision. (T-l, p. 173, lines 1-3).

Page 19 of28

The Allocution.
As indicated, McDaniel was required to submit his written allocution as a term of his plea
bargain. McDaniel was heavily involved in the preparation of his allocution, and he and his
attorneys worked on it to his satisfaction and approval before it was presented to the trial Court.
Having somewhat described the chilling allocution herein, the Court incorporates its content by
reference without further description or recitation. (R-47, Allocution, T-l, p. 148, lines 18-20).
Habeas Claims.
McDaniel filed his habeas application on February 20, 2018 through which he asserts
four grounds for relief: (1) a search without a valid search warrant is per se unreasonable, (2)
opinion work product is entitled to absolute protection as part of the Sixth Amendment right to
effective assistance, (3) a defendant is entitled to a fair and impartial judicial officer as a basic
requirement of Due Process, and (4) a defendant is entitled to the effective assistance of counsel
in the context of the plea, and if the plea is caused by the ineffective assistance of counsel, the
plea is not valid. (Habeas Petition, pp. 18-68), Respondent asserts that McDaniel’s properly
entered plea of guilty waived his defenses to the first, second, and third ground for relief
premised on the challenged search, the seizure of alleged work product and legal research
requests, and the alleged impartiality of Judge Simms.

Respondent further asserts that

McDaniel’s plea of guilty was freely and voluntarily entered and that McDaniel’s counsel
provided effective assistance.
EL

Conclusions of Law.

A.

McDaniel waived Iris claims for relief asserted in grounds one, two, am! three
hv entering a knowing and voluntary pica of guilty.

McDaniel has waived his claims for relief asserted in grounds one, two, and three in this
proceeding by entering a knowing and voluntary plea of guilty. Once a defendant has solemnly

Page 20 of 28

admitted in open court that he is in fact guilty of the offense charged, he may not thereafter raise
independent claims relating to the deprivation of constitutional rights that occurred prior to the
entry of the guilty plea. ToHctl y, Henderson. 411 U.S. 258, 267, 93 S.Ct. 1602, 36 L.Ed.2d 235
(1973); Addison v. State. 239 Ga. 622, 239 Ga. 622 (1977) (Appellant who pleaded guilty to
avoid a possible death sentence on a murder charge may not “have it both ways” and gain the
additional advantage of some possibly favorable facts brought out at the trials of his co­
defendants who took their chances with the jury).
The Supreme Court of Georgia has recognized this principle and applied it in several
decisions. Id. See e.g. Harris v< Hooper. 236 Ga. 389, 391, 224 S.E.2d 1 (1976) (guilty plea
waives speedy indictment claim); Hooks v. State; 233 Ga. 149(1), 210 S.E.2d 668 (1974) (guilty
plea waives claim of invalid jury selection and grand jury composition); Polk v. Holland. 229
Ga. 169(2), 190 S.E.2d 35 (1972) (guilty plea waives illegal search claim). As a result of his
valid plea of guilty in order to avoid a possible death sentence, McDaniel has waived his claims
in this proceeding other than the voluntariness of his plea of guilty and alleged ineffective
assistance of counsel.10
Indeed, the principle that a plea of guilty intelligently and voluntarily given amounts to a
waiver of defenses known and unknown has been applied consistently in both the Supreme Court
of Georgia and the Georgia Court of Appeals. Clark v. Caldwell. 229 Ga. 612, 193 S.E.2d 816
(1972); Efowuy.-. Caldwell. 229 Ga. 186, 190 S.E.2d 52 (1972), citing Snell V. Smith. 228 Ga.
249, 250, 184 S.E.2d 645 (1971); Kemb v. Simmon. 278 Ga. 439, 439^140, 603 S.E.2d 267
(2004); WrigM v. Hall. 281 Ga. 318, 638 S.E.2d 270 (2006): ffiarper v. State. 225 Ga. App. 510,
484 S.E.2d 307 (1997), citing Brown v. Caldwell, supra; Paris! v. State. 249 Ga, App. 320, 547

10 The claims McDaniel has waived through his properly entered plea of guilty include a challenge to one of the
search warrants issued by the trial court, self-incrimination, involuntary statements, failure to call witnesses,
exploited defense trial strategy and opinion work product, attorney-client privilege, prosecutorial, judicial and state
misconduct and bias, alleged ex parte communications, and ineffectiveness for reasons that do not involve
McDaniel’s plea of guilty-. (R-l, Application, R-2, Brief, pp. 1-5).
Page 21 of 28

S.E.2d 618 (2001), citing Sam^e v. State. 232 Ga. App. 690, 693(2), 503 S.E.2d 576 (1998);
Carroll v, Holt, 251 Ga. 144, 304 S.E.2d 60 (1983). Also, such a waiver includes “all defenses to
the indictment [Cits.]” Lawson v, State. 204 Ga. App. 796(1), 420 S.E.2d 600 (1992).
Furthermore, the Supreme Court of the United States specifically has held as much. “A
plea of guilty and the ensuing conviction comprehend all of the factual and legal elements
necessary to sustain a binding, final judgment of guilty and a lawful sentence.” 118. Brace. 488
U.S. 563, 569, 109 S.Ct. 757, 102 L.Ed.2d 927 (1989). Once a judgment of conviction entered
upon a plea of guilty becomes final, challenges are ordinarily confined to whether the underlying
plea was both counseled and voluntary. ]d. Also, a defendant cannot raise independent claims
relating the deprivation of constitutional rights that occurred before his guilty plea: he can only
attack the voluntary nature of his plea and the advice he received from his attorney. Toll.ett y
Henderson. 411 U.S. at 267. Accordingly, and as further addressed below, except for his claims
which concern whether his underlying plea was both counseled and voluntary, McDaniel’s
grounds for relief in this case have been waived as a result of his plea of guilty. As such, relief
as to the waived claims is denied.
B. McDaniel prnpetTy entered life guilty plea arid his counsel did not render
ineffective assistance.
1. McDaniel properly entered a valid plea of guilty .
Throughout our history, Georgia law has presumed the regularity of final judgments of
conviction, even when those judgments were challenged by way of a petition for a writ of habeas
corpus. A habeas petitioner who challenges the validity of his guilty plea bears the burden of
showing that the plea was not voluntary, knowing, or intelligent. Laieune v. McGlaughlin. 296
Ga. 291, 766 S.E.2d 803 (2014), citing Parke v. Ralcv. 506 U.S. 20, 28, 113 S.Ct. 517 (1992);
overruling Ponds v. Connell. 227 Ga. 764,182 S.E.2d 892 (1971).

Page 22 of 28

In order for a guilty plea to be valid, the record must show that the defendant understood
and intelligently entered the plea. Boykin y, Alabama. 395 U.S. 238, 89 S.Ct. 1709, 23 L.Ed 274
(1969). For a guilty plea to be voluntary, knowing and intelligent, the record must reflect that
the petitioner was informed the entrance of the guilty plea would result in a waiver of the right to
a trial by jury, the right against compulsory self-incrimination, and the right to confront one’s
accusers. Boykin, supra. “A guilty plea, voluntarily, and intelligently entered, may not be
vacated because the defendant was not advised of every conceivable constitutional plea in
abatement he might have to the charge. Tblietf v. Henderson. 411 U.S. 258, 267, 93 S.Ct. 1602,
1608 (1973).
The Supreme Court of Georgia has described the factors that establish the validity of
voluntariness of a guilty plea:
To establish that a guilty plea is valid, the record must show that
the defendant understood and intelligently entered the plea. The
trial court must determine that the plea is voluntary, the defendant
understands the nature of the charges, and there is a factual basis
for the plea. In addition, the trial court must inform tire defendant
of the rights being waived, the terms of any negotiated plea, and
the minimum and maximum possible consequences.
Johnson v. State. 275 Ga. 538, 539 (2002); Smith v. Magnuson. 297 Ga. 210,212-13, 773 S.E.2d
205(2015).
Furthermore, language which adequately conveys the core principles of Boykin is
sufficient to show that a defendant’s guilty plea is entered freely, knowingly, and voluntarily.
Rogers v. State. 286 Ga. 55, 685 S.E.2d 281 (2009), citing Adams v. State. 285 Ga. 744, 745(1),
683 S.E.2d 586 (2009).

“Nothing in Boykin requires the use of any particular language,

precisely defined language, or “magic words” during a guilty plea proceeding. Phelps v. State.
293 Ga. 873, 750 S.E.2d 340 (2013), citing Adams v. .State. 285 Ga. 744, 745(1), 683 S.E.2d 586
f2009k Brown v, State. 290 Ga. 50,718 S.E.2d 1 (2011), citing Adams, supra.

"•r'i-r.:

Page 23 of 28

Here, McDaniel has not made a sufficient showing in support of his position that his plea
was improperly entered.

In contrast, respondent’s documentary exhibits, corroborated by

testimonial evidence, wholly belie any assertion of the impropriety of McDaniel’s plea of guilty.
In addition, this Court has thoroughly reviewed the transcript of McDaniel’s negotiated plea
hearing and Waiver of Rights form (R-45, R-48). Both more than amply show McDaniel’s plea
to have been entered freely, knowingly, and voluntarily pursuant to Boykin, supra. Furthermore,
as with McDaniel’s plea of guilty, a plea statement form signed by a defendant in conjunction
with the record of the plea hearing can be used to show that a guilty plea is knowingly and
voluntarily entered. Phelps v. State, 293 Ga. 873, 750 S.E.2d 340 (2013), citing Lloyd v. State,
288 Ga. 481, 485-486(4)(b), 705 S.E.2d 616 (2011); Gainer v. State. 267 Ga. App. 408, 409, 599
S.E.2d 359 (2004). See also Brown v. 'State. 290 Ga. 50, 51-52(1), 718 S.E.2d 1 (2011), (a
waiver-of-rights form can serve as evidence that trial court or trial counsel adequately explained
Boykin rights to defendant). McDaniel properly entered his plea of guilty. Accordingly, his
claim that his plea of guilty is invalid provides no basis for relief and is therefore denied.
2. McDaniel received effective assistance of counsel.
All criminal defendants, including those who waive their right to trial and enter a guilty
plea, are entitled to effective legal assistance. Thompson w.,:Cirt^ne. 265 Ga. 782, 784 (2), 462
S.E.2d 747 (1995). Claims of ineffective assistance of counsel in the plea bargain context are
governed by the two-part test set forth in Strickland v. Washington. 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984). Hill v. Lockhart. 474 U.S. 52, 57, 106 S.Ct. 366, 88 L.Ed.2d 203
(1985); Thompson v. Greene, 265 Ga. 782(2), 462 S.E.2d 747 (1995). In order to show a
constitutional violation of this Sixth Amendment right, a petitioner must (1) establish that his
counsel’s performance fell below an objective standard of reasonableness and (2) there is a
reasonable probability that, but for counsel’s errors, he would not have pled guilty and would
have insisted on going to trial. Rollins v. State. 277 Ga. 488, 591 S.E.2d 76 (2004), citing
Page 24 of 28

Brantley V. State, 268 Ga. 151,152, 486 S.E.2d 169 (1997). To prevail on a claim of ineffective
assistance of counsel, a defendant is therefore required to show that his “counsel’s representation
fell below and objective standard of reasonableness” and that “the outcome of the plea process
would have been different with competent advice.” (Citations and punctuation omitted). Lafior
v. Goober.---- U.S.------(1I)(A), (B), 132 S.Ct. 1376, 1384, 182 L.Ed.2d 398 (2012). Brown,
supra, citing Cleveland, v, State, 285 Ga. 142, 1.45, 674 S.E.2d 289 (2009). See also Wright v.
Van Patten 552 U.S. 120,128 S.Ct. 743,169 L.Ed.2d 583 (2008).
Before a guilty plea is entered the defendant’s understanding of the plea and its
consequences can be established on the record. This affords the State substantial
protection against later claims that the plea was the result of inadequate advice.
At the plea, entry proceedings the trial court and all counsel have the opportunity
to establish on the record that the defendant understands the process that led to
any offer, the advantages and disadvantages of accepting it, and the sentencing
consequences or possibilities that will ensue once a conviction is entered based
upon, tire plea.
Frye, supra, 132 S.Ct. at 1406(II)(A).
In order to successfully plead a claim of ineffective assistance of counsel, “there must be
showing that the habeas petitioner was to some degree prejudiced thereby. Zant v, Hamilton.
251 Ga. 553, 307 S.E.2d 667, 669 (1983). A petitioner is prejudiced when he or she is shown to
have entered a guilty plea that “failed to benefit him [and] it affirmatively penalized him, in that
he received a harsher sentence than the one that could have been legally imposed had he
proceeded to trial and been convicted of all counts. Petty v.; Smith. 279 Ga. 273,276, 612 S.E.2d
276, 279 (2005). In addition, a claim of ineffective assistance of counsel is not judged by
hindsight. See Cammer v. Walker, 290 Ga. 251, 255(1), 719 S.E.2d 437 (2011).
Here, McDaniel has not shown the performance of his plea counsel to be outside the
range of reasonable competence for attorneys in criminal cases or any probability that he would
have insisted on going to trial and not plead guilty but for counsel’s alleged errors. In addition to
■r::™.::,................ ■.

Page 25 of 28

•.

the sentence he received, his attorneys globally resolved several legal matters pending against
McDaniel. Nor has McDaniel shown any prejudice as a result of the entry of his plea of guilty
insofar as he received a more favorable sentence than he would have received had he proceeded
to trial and been, convicted and either the death penalty or a sentence of life imprisonment
without the possibility of parole been imposed.

McDaniel’s attorneys provided effective

assistance in connection with the entry of his plea of guilty.
Furthermore, though not material to the entry of his plea of guilty, McDaniel’s counsels’
decision to forego a mental health defense,11 allow the interception of McDaniel’s legal research
requests and summaries to go unchallenged, and not to seek recusal were matters of reasonable
and wise trial strategy. Matters of trial strategy and tactics and "whether wise or unwise, do not
constitute ineffective assistance of counsel." King v. Slate. 241 Ga. App. 894, 895-896(3), 528
S.E.2d 535 (2000); see also Morgan v. State. 275 Ga. 222, 227, 564 S.E.2d 1.92 (2002).

Lastly,

according to the American Bar Association’s Standards for Criminal Justice, endorsed in Reid v.
State, 235 Ga. 378, 379, 219 S.E.2d 740 (1975), Vflti Alstme v. State; 263 Ga. 1,2-3, 426 S.E.2d
360 (1993), and Chapman v. State, supra, 273 Ga. At 351(2), 541 S.E.2d 634 (2001), decisions
which arc to be made by the accused after full consultation with counsel are: (i) what plea to
enter; (ii) whether to waive jury trial; and (iii) whether to testify... What trial motions should be
made, and all other strategic and tactical decisions are the exclusive province of the lawyer after
consultation with the client. Prifice v. State. 277 Ga. 230, 587 S.E.2d 637 (2003). McDaniel and
his attorneys properly consulted and made decisions in connection with the entry of McDaniel’s
11 McDaniel undisputedly did not disclose any alleged history of mental health problems to his counsel, and as
noted, no such evidence has been presented to this court. Accordingly, there is no basis on which to find
ineffectiveness for any mental health related reason. A totgtidery,_,8thtc. 734 S.B.2d 432, citing TyMOLSM?, 313
Ga. App. 557, 566(6)(d), 722 S.E.2d 177 (2012) (finding no ineffective assistance because defendant did not
disclose alleged mental health problem to trial counsel).

Page 26 of 28

plea of guilty and otherwise in this case. Accordingly, McDaniel's asserted claim of ineffective
assistance of counsel provides no basis for relief and is therefore denied also for these reasons.
WHEREFORE, it is hereby ordered that the subject application for writ of habeas corpus
be denied and that the petitioner, Stephen Mark McDaniel, be remanded to the custody of the
Warden/Respondent for the remainder of his lawful sentence. If the petitioner desires to appeal
this Order, he must file a written application for certificate of probable cause to appeal with the
Clerk of the Georgia Supreme Court within 30 days from the date of the entry of this Order and
file a Notice of Appeal with the Clerk of the Superior Court of Richmond County' within the
same 30-day period. No appeal shall be allowed an unsuccessful petitioner unless the Supreme
Court of this state issues a certificate of probable cause for the appeal. O.C.G.A. § 9-14-52(a).
In the event of appeal, the Clerk of the Superior Court of Richmond County is hereby directed to
;

provide certification on the record that the petitioner has been provided with a copy of the habeas
hearing transcript at the Stale’s expense, and the manner and date such service was effectuated.
The Clerk of the Superior Court of Richmond County is hereby further directed to mail a copy of
this Order to the petitioner, the petitioner’s counsel, if any, and the Respondent/Warden through
undersigned counsel, as Special Assistant Attorney General.
SO ORDERED, this

ada§ of September, 2019.

3dlikFlytlje
Judgdisf Superior Court
Augusta Judicial Circuit

Proposed Order presented as directed by Daniel W. Hamilton
Special Assistant Attorney General
1
Page 27 of 28

*'-4

SUPREME COURT OF GEORGIA
Case No. S20H0313
November 02, 2020

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
STEPHEN MARK MCDANIEL v. EDWARD PHILBIN,
WARDEN.
Upon consideration of the application for certificate of
probable cause to appeal the denial of habeas corpus, it is ordered
that it be hereby denied.
All the Justices concur, except Warren, J., not participating.
Trial Court Case No. 2018-RCHM-2

-’.vr

Appendix C

-

, rr.r

:

v..

‘'ll

J:

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

}

- X-

tv

Clerk

*

3

SUPREME COURT OF GEORGIA
Case No. S20H0313
December 07, 2020

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
STEPHEN MARK MCDANIEL v. EDWARD PHILBIN,
WARDEN.
Upon consideration of the Motion for Reconsideration filed
in this case, it is ordered that it be hereby denied.
Melton, C. J., Nahmias, P. J., and Boggs, Peterson, Bethel,
Ellington, and McMillian, JJ., concur. Warren, J., not
participating.

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

, Clerk
••A""'-

Appendix U

